         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report



          Measuring and Reporting
          Performance Results for the
          Pollution Prevention Program
          Need Improvement

          Report No. 09-P-0088

          January 28, 2009
Report Contributors:	                 Gail Saunders
                                      Anthony Grear
                                      Patrick Gilbride




Abbreviations

EPA             U.S. Environmental Protection Agency
FY              Fiscal Year
OIG             Office of Inspector General
OMB             Office of Management and Budget
OPPTS           Office of Prevention, Pesticides, and Toxic Substances
P2              Pollution Prevention
PART            Program Assessment Rating Tool
PIP             Program Improvement Plan
QAPP            Quality Assurance Project Plan
QMP             Quality Management Plan




Cover photo:	      Within the Office of Pollution Prevention and Toxics’ Design for the
                   Environment Branch of the Economics, Exposure, and Technology Division,
                   the Lead-Free Solder initiative works to phase out the use of lead-based solder
                   in electronics. (EPA photo)
                       U.S. Environmental Protection Agency 	                                                09-P-0088
                                                                                                       January 28, 2009
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment

Why We Did This Review             Measuring and Reporting Performance Results for the
The U.S. Environmental             Pollution Prevention Program Need Improvement
Protection Agency’s (EPA’s)
Pollution Prevention (P2)           What We Found
Program was rated moderately
effective by the Office of         The P2 Program’s data provided in response to the OMB PART assessment
Management and Budget              generally addressed the PART questions and supported the moderately effective
(OMB) in Fiscal Year 2006,         rating received. However, we noted several weaknesses:
receiving the third highest
rating awarded to EPA
programs using the                 •	 The P2 Program’s Fiscal Year 2006 PART performance measures were not
Program Assessment                    designed to report on the program’s impacts to human health and the
Rating Tool (PART). We                environment. P2 Program managers believed that reductions in discharges
sought to verify the accuracy         and emissions of pollutants represent the best measures that can be supported
of P2 Program data provided           by data obtainable on a program-wide basis and acknowledge that additional
for the PART assessment and           outcome measures are needed to assess impacts on human health and the
determine what actions have           environment associated with hazardous materials reductions.
been taken to address the
recommendations in the PART
                                   •	 The P2 Program’s verification and validation procedures did not ensure the
program improvement plan.
                                      accuracy of performance data. P2 program managers had no assurance that
Background                            performance results data obtained from voluntary partnerships with industry
                                      and other organizations were accurate. The Program’s Fiscal Year 2006
The Pollution Prevention Act          performance results were not reported consistently and contain inaccuracies.
of 1990 established policy for        Strengthening data controls would provide P2 managers with improved
controlling industrial pollution      program performance data.
at its source. EPA uses the P2
Program to facilitate adoption     •	 While the P2 Program has completed several interim PART follow-up
of source reduction techniques        actions, some of its actions to address its program improvement plan have
by businesses, EPA, and other         been slow. In addition, the plan did not address all deficiencies identified in
federal agencies. EPA uses
                                      the PART assessment.
the P2 Program to accomplish
this. PART is a diagnostic
tool designed to assess the         What We Recommend
management and performance
of federal programs.               We recommend that EPA continue efforts to develop performance indicators that
                                   measure impacts on human health and the environment; require the development
                                   of a P2 Division Quality Assurance Project Plan for data collection and reporting;
For further information,
contact our Office of              and develop a program improvement plan to address all deficiencies identified in
Congressional, Public Affairs      the PART assessment. EPA concurred with our recommendations and has
and Management at                  developed reasonable completion dates for each recommendation.
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090128-09-P-0088.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         January 28, 2009

MEMORANDUM

SUBJECT:	              Measuring and Reporting Performance Results for the Pollution
                       Prevention Program Need Improvement
                       Report No. 09-P-0088


FROM:	                 Melissa M. Heist
                       Assistant Inspector General for Audit

TO:	                   Jim Jones
                       Acting Assistant Administrator for the Office of Prevention, Pesticides,
                       and Toxic Substances


This is our report on the U.S. Environmental Protection Agency’s (EPA’s) Pollution Prevention
Program’s Fiscal Year 2006 Program Assessment Rating Tool audit conducted by EPA’s Office
of Inspector General (OIG). This report represents our final position on the subjects reported. It
contains findings that describe the issues the OIG has identified and corrective actions the OIG
recommends. This report represents the opinion of the OIG and does not necessarily represent
the final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $428,435

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to the
findings and recommendations in this report within 90 days of the report date. You should
include a corrective action plan for agreed upon actions, including milestone dates. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0899;
or Patrick Gilbride, Director of Risk and Program Performance Audits, at (303) 312-6969 or
gilbride.patrick@epa.gov.
Measuring and Reporting Performance Results for the                                                                           09-P-0088
Pollution Prevention Program Need Improvement


                                   Table of Contents 


Chapters
   1	   Introduction ..........................................................................................................          1

                Purpose .............................................................................................................    1

                Background ...................................................................................................           1         

                Noteworthy Achievements..............................................................................                    3         

                Scope and Methodology.................................................................................                   3


   2	   PART Information Supports Rating ....................................................................                            5

                Information Supports Rating...........................................................................                   5

                Several Weaknesses Noted ...........................................................................                     6


   3	   Performance Measures Need to Better Address Impacts .................................                                            7

                P2 Program Needs Better Performance Measures ........................................                                    7

                Defining a Universe of P2 Pollutants Difficult .................................................                         9

                Recommendations .........................................................................................               10 

                Agency Response and OIG Comments ........................................................                               11 


   4	   P2 Program Needs to Strengthen Internal Controls 

        over Data Collection..............................................................................................              12     

                Collecting Data from Multiple Sources Challenging .........................................                             12     

                Inconsistent and Inaccurate Reporting of Results ...........................................                            13     

                Data Quality Requirements Not Met...............................................................                        15 

                Recommendations ........................................................................................                16         

                Agency Response and OIG Comments ........................................................                               16 


   5	   Program Improvement Plan: Progress Slow and Not All 

        Weaknesses Addressed .......................................................................................                    18

                Progress to Address PIP Slow .......................................................................                    18 

                Additional Program Improvements Needed....................................................                              21

                Recommendations .........................................................................................               22         

                Agency Response and OIG Comments ........................................................                               22 


   Status of Recommendations and Potential Monetary Benefits.................................                                           23     



Appendices
   A    EPA’s Hierarchy of Indicators..................................................................................                 24 

   B    Agency Response to Draft Report...........................................................................                      25 

   C    Distribution ..............................................................................................................     34 

                                                                                           09-P-0088 





                                   Chapter 1
                                   Introduction

Purpose
          Using the Program Assessment Rating Tool (PART), the Office of Management
          and Budget (OMB) assessed the U.S. Environmental Protection Agency’s
          (EPA’s) Pollution Prevention (P2) Program in Fiscal Year (FY) 2006. OMB
          found the program to be performing moderately effective, awarding the program
          the third highest rating (82 percent) among the 53 EPA programs assessed. Our
          objectives were to:

              •	 verify the accuracy of the P2 Program’s information/data provided in
                 response to the PART assessment, and
              •	 determine what actions the P2 Program has taken to address
                 recommendations in the program improvement plan.

Background
          The Pollution Prevention Act of 1990

          The Pollution Prevention Act of 1990 established pollution prevention as the
          national policy reducing industrial pollution at its source – in other words, to keep
          pollutants from entering the environment. EPA, through its P2 Program, works to
          reduce pollution before it occurs by encouraging and supporting innovative
          changes in industrial production and use of raw materials. The following table
          shows FY 2006 actual expenditures and FY 2007 and 2008 President’s Budget
          figures:

          Table 1-1: Pollution Prevention Program President’s Budget (Millions)
                                                              2006           2007           2008
                               Fund
                                                             Actual         Budget         Budget
           Environmental Program and Management             $17,744.8      $21,292.4      $19,935.0
           State and Tribal Assistance Grants                 4,192.6        5,940.0        5,940.0
           Total                                            $21,937.4      $27,232.4      $25,875.0
          Source: FY 2008 Annual Performance Plan and Congressional Justification (EPA’s Proposed
          Budget).


          The Office of Pollution Prevention and Toxics, within the Office of Prevention,
          Pesticides, and Toxic Substances (OPPTS), is responsible for the P2 Program.
          One way the Office of Pollution Prevention and Toxics encourages industry and
          others to implement P2 activities is through voluntary programs. The voluntary
          pollution prevention activities (identified in the PART as “Centers of Results”)
          include:


                                               1

                                                                          09-P-0088 



   1.	 Design for the Environment: A partnership program that works with a
       broad range of stakeholders to use the unique tools and expertise of the
       New Chemicals Program to inform businesses of safer chemicals.

   2.	 Environmentally Preferable Purchasing: A federal government-wide
       program managed by the Pollution Prevention Division that requires and
       assists federal agencies in the purchasing of environmentally preferable
       products and services.

   3.	 Green Chemistry: A national Pollution Prevention Act and Toxic
       Substance Control Act based program that focuses on P2 through the
       environmentally conscious design of safer and economically competitive
       chemical products and processes. The program includes the Presidential
       Green Chemistry Challenge Awards for rewarding technologies that have
       demonstrated P2 benefits across the life cycle, including the design,
       manufacture, and use of chemical products.

   4.	 Green Suppliers Network: A collaborative venture between industry
       and EPA that works with all levels of the manufacturing supply chain to
       achieve environmental and economic benefits.

   5.	 Hospitals for a Healthy Environment/Partnership for Sustainable
       Healthcare: A program working with the healthcare industry to reduce
       its environmental impact. It became EPA’s first voluntary program to
       become an independent non-profit organization in 2006. The program
       was initially named Hospitals for a Healthy Environment, but took on the
       new name Partnership for Sustainable Healthcare when the initial program
       became independent.

   6.	 Pollution Prevention Resource Exchange: Provides national-level
       support and coordination of the Pollution Prevention Resource Exchange
       network through the provision of P2 information to facilitate State and
       tribal P2 technical assistance providers, and records the results of State
       P2 programs through a National P2 results system.

   7.	 P2 Program in EPA’s 10 Regional Offices: Report results from
       matching grants to State/tribal P2 programs, source reduction grants to
       promote P2 practices by industry, and direct regional efforts to facilitate
       business P2 practices and interstate coordination on promoting P2.

Program Assessment Rating Tool

PART, developed by OMB, is a diagnostic tool and management control process
to assess program performance and drive a focus on results. PART is designed to
provide a consistent approach to assessing and rating programs across the Federal
Government. PART reviews overall program effectiveness, from how well a
program is designed to how well it is implemented and what results are achieved.



                             2

                                                                                   09-P-0088 



         PART uses a standard questionnaire. For each question, agencies provide short
         answers and a detailed explanation with supporting evidence. Once each
         assessment is completed, a rating is assigned and, if necessary, a program
         improvement plan is developed to monitor and improve program performance.

         The P2 Program is one of 53 EPA programs assessed using the PART tool. It
         received a score of moderately effective based on a rating of 82 percent, the third
         highest among all EPA programs assessed. According to OMB, a program rated
         moderately effective has set ambitious goals and is well-managed. Moderately
         effective programs likely need to improve their efficiency or address other areas
         in the program’s design or management to achieve better results.

Noteworthy Achievements
         The Design for the Environment center, working with the automotive refinishing
         industry, developed best practices that help small businesses reduce emissions of
         toxic chemicals. Building on a successful approach, Design for the Environment
         worked collaboratively with EPA’s Office of Air Quality Planning and Standards
         and EPA regional offices to base an area source regulation on this P2 program.
         The regulation became effective on January 9, 2008.

         Hospitals for a Healthy Environment became EPA’s first voluntary program to
         become an independent non-profit organization in 2006. Although the new entity,
         a 50l(c)(3) non-profit organization, is totally independent and has no legal
         connection to the Agency, it retained the name and has an agenda and mission
         consistent with EPA’s goals.

Scope and Methodology
         We conducted our field work from October 2007 through April 2008 in accordance
         with generally accepted government auditing standards. Those standards require
         that we plan and perform the audit to obtain sufficient, appropriate evidence to
         provide a reasonable basis for our findings and conclusions based on our audit
         objectives. We believe that the evidence obtained provides a reasonable basis for
         our findings and conclusions based on our audit objectives.

         To accomplish our objectives, we reviewed the P2 Program’s responses to the
         OMB PART questionnaire and analyzed the evidence the program provided in
         support of those responses. We reviewed the supporting evidence for each of the
         PART questions to ensure that it adequately supported the program’s response
         and to determine whether it supported the OMB score received. In support of
         EPA’s mission “To Protect Human Health and the Environment,” we assessed
         whether the program’s performance measures adequately measure progress
         toward protecting human health and the environment.




                                       3

                                                                          09-P-0088 



To test internal controls, we met with officials from each of the seven Centers of
Results to identify their voluntary partners. For each center, we flow charted their
organizational processes and documented their program data sources and uses.
We obtained, analyzed, and traced the performance results to supporting
documentation to verify and validate performance results reported for FY 2006.
We met with the P2 coordinators for Regions 3 and 8 to obtain, review, and
analyze the grantee data flow. We obtained the regional grantees’ program
performance reports and traced the program results to supporting documentation.

We reviewed the program improvement plan developed by OMB and the P2
Program and obtained and analyzed actions taken and planned to address the plan.

We briefed P2 Program managers on our preliminary results to obtain their
feedback and ensure that we accurately and completely captured their P2 efforts.

Because we looked at the first PART review of the P2 Program, no follow-up was
needed.




                              4

                                                                                 09-P-0088 





                               Chapter 2
            PART Information Supports Rating
          The P2 Program’s data provided in response to the OMB PART Assessment
          generally addressed the PART questions and supported the moderately effective
          rating received. Moderately effective means the P2 Program has set ambitious
          goals and is well-managed. Despite receiving a moderately effective score,
          several internal control weaknesses were identified that need to be addressed.

Information Supports Rating
          Our review of the P2 Program’s responses and the supporting data for each of the
          four PART categories disclosed the following.

             1. Program Purpose and Design: The program received a score of
             100 points in this section. We reviewed the documents provided as evidence
             and found they support the OMB PART assessment score. The P2 Program
             has been designed to address the requirements of the Pollution Prevention Act.

             2. Strategic Planning: The program received 88 out of 100 points in this
             section. We reviewed the documents provided as evidence and found they
             support the OMB PART assessment score. At 12 points each, no points were
             awarded for PART question 2.6, “Are independent evaluations of sufficient
             scope and quality conducted on a regular basis or as needed to support
             program improvements and evaluate effectiveness and relevance to the
             problem, interest, or need?” While the P2 program has conducted evaluations,
             including two conducted by EPA’s Office of Policy, Economics and
             Innovation, they did not meet OMB’s criteria for independence.

             3. Program Management: The program received 70 out of 100 points for
             this section. We found that the quality of the data supporting the P2 PART
             performance measures impacts the program’s performance measurement and
             accomplishment reporting. At 10 points each, no points were awarded for the
             following questions:

                 •	 “Does the agency regularly collect timely and credible performance
                    information, including information from key program partners, and use
                    it to manage the program and improve performance?” (Question 3.1)
                 •	 “Are federal managers and program partners held accountable for cost,
                    schedules and performance results?” (Question 3.2)
                 •	 “Does the program collect grantee performance data on an annual
                    basis and make it available to the public in a transparent and
                    meaningful manner?” (Question 3.CO3)



                                          5

                                                                                 09-P-0088 



            4. Program Results/Accountability: The program received 80 out of 100
            points for this section. We found that the documents provided as evidence
            support the OMB PART assessment score in this section. At 20 points each,
            no points were awarded for question 4.5, “Do independent evaluations of
            sufficient scope and quality indicate that the program is effective and
            achieving results?” OMB made a determination that the evaluations
            conducted by the program lacked sufficient independence to receive credit
            under the PART. As a result of our review, we believe P2 should take
            additional steps to demonstrate relative effectiveness of its results in
            protecting human health and the environment, as discussed later in this report.

Several Weaknesses Noted
         In addition to reviewing the PART and the P2 Program’s evidence provided in
         support of its responses to the PART questions, we also examined the internal
         controls used to capture and report program accomplishments. Government
         Accountability Office Standards for Internal Controls in the Federal Government
         state that internal controls are an integral component of an organization’s
         management that provide reasonable assurance that the program operates
         effectively and efficiently. We found the following weaknesses:

            •	 The P2 Program’s FY 2006 PART approved performance measures were
               not designed to report on the effects on human health and the
               environment.
            •	 The P2 Program’s verification and validation procedures did not ensure
               the accuracy of performance data.
            •	 The PART program improvement plan did not address all the deficiencies
               identified.

         Details on our findings and recommendations for these three issues are in
         Chapters 3 through 5, respectively.




                                         6

                                                                                                 09-P-0088 





                                    Chapter 3
                Performance Measures Need to
                    Better Address Impacts
         The P2 Program’s two FY 2006 PART-approved long-term performance
         measures are not designed to report on the program’s impact to human health or
         environmental conditions. The two FY 2006 PART measures used by the P2
         Program are:

             •	 Cumulative pounds of hazardous materials reduced by P2 Program
                participants.
             •	 Cumulative business, institutional, and government cost reduced by P2
                Program participants.

         According to the Chief, Planning and Assessment Branch, the lack of reliable data
         limits the P2 Program’s ability to measure its impacts on human health and the
         environment. This limits EPA’s ability to measure progress toward meeting the
         Agency’s goal of protecting human health and the environment.

P2 Program Needs Better Performance Measures
         Federal agencies are expected to demonstrate how their activities contribute to
         achieving agency or government-wide goals. The Government Performance and
         Results Act requires federal agencies to report annually on their progress in
         achieving their agency and program goals.

         EPA categorizes its performance goals and measures in a framework known as
         the “hierarchy of indicators” (see Figure 3-1; Appendix A provides more details).

         Figure 3-1: EPA Hierarchy of Indicators
                                              Level
                1           2           3                       4               5                6
          Actions by         Actions or   Discharges     Concentrations     Pollutants    Environmental
          EPA, States,       responses    and            of pollutants in   absorbed by   risk or impacts
          tribes, or other   by           emissions of   the                the human     to the ecology
          governmental       regulated    pollutants     environment        body          or human
          bodies             parties                                                      health and/or
                                                                                          welfare
         Source: Government Accountability Office Report, GAO/RCED-00-77, EPA Faces Challenges
         in Developing Results-Oriented Performance Goals and Measures, April 2000

         This framework ranks the performance goals and measures according to their
         impact on improving human health and the environment. At the top of the
         hierarchy, level 6 indicators are reductions of environmental risks or impacts to the
         ecology or to human health and/or welfare. Level 3 indicators are reductions in


                                                 7
                                                                         09-P-0088 



discharges and emissions of pollutants. The P2 Program’s two FY 2006 PART-
approved long-term end outcome performance measures fall into the level 3
category, which limits the P2 Program’s ability to relate program results to impacts
on human health and the environment. P2 Program managers believe that the
lower level outcome measures represent the highest level measure relating to the
program’s hazardous materials reduction mission that can be supported by data
obtainable on a program-wide basis. However, the P2 Program does have two
higher level Government Performance and Results Act performance measures
(reductions in energy use and water use) that are included in the Program’s annual
President’s Budget and Performance Accountability Report but were initially
rejected as PART measures during the FY 2006 PART assessment. OMB
approved the water savings measure and an additional higher-level measure
“reductions in green house gas emissions” as PART measures in the 2008 PART
Spring Update.

The seven Centers of Results logic models further illustrate that the P2 Program’s
FY 2006 PART measures were not designed to measure impacts to human health
or the environment (see example Figure 3-2). A logic model is an evaluation tool
used to describe a program’s components and desired results. It explains the
strategy or logic by which the program expects to achieve results. Logic models
help articulate a program’s expected outcomes by linking program resources and
activities to program outcomes. While not inherently measureable, the centers’
logic models do highlight movement towards sustainability through behavior
change as well as within center mission and goal statements. We reviewed each
of the logic models and found that none directly linked their resources to
effectiveness in protecting human health and the environment. Instead they
focused on hazardous materials reductions and cost savings, which equate to
level 3 on EPA’s hierarchy of indicators.

The Chief, Planning and Assessment Branch, told us that due to a lack of reliable
and readily available data on a program-wide basis required to support higher
level measures, level 3 measures are generally accepted by the P2 Program as the
highest available for measuring results associated with the program’s hazardous
materials reduction mission. He indicated that while some P2 results centers such
as Design for the Environment and Green Chemistry do have access to these data,
obtaining them on a program-wide basis would be challenging and require OMB
approval of Information Collection Requests and consent by voluntary partners
and State P2 Programs to provide the data. The Chief further indicated that
measuring improvements to health and ecological conditions is challenging
because no methodology exists for modeling changes in these conditions based on
reductions to any and all pollutants. Available methodologies are only equipped
to measure hazard or risk change on a chemical-by-chemical basis where the
chemical of concern is known. According to the Chief, additional methodologies
and data are needed to establish a direct cause-and-effect relationship between the
program’s activities and the resulting changes in the environment and human
health.



                                 8

                                                                                                                                                                              09-P-0088


Figure 3-2: Pollution Prevention Resource Exchange Program Logic Model
  JULY 2007

         POLLUTION PREVENTION RESOURCE EXCHANGE (P2Rx) PROGRAM LOGIC MODEL
                                 MISSION: To advance pollution prevention and resource conservation as effective and efficient environmental practices, by
                                 fostering the exchange of pollution prevention information, enhancing networking opportunities and providing technical assistance.

                                                                                                                                                  OUTCOMES

        INPUTS                  ACTIVITIES                      OUTPUTS                    CUSTOMERS                      ATTITUDE                  BEHAVIOR                   CONDITION

                              P2Rx Center                   P2Rx RFPs                                                  Increase in              P2RX centers and             Reduced hazardous
     EPA HQ and               Support                                                                                  grantees and TA          TAPs assist more             materials released,
     Regions                                                P2Rx Grants
                                                                                                                       providers’ ability to    clients                      incorporated into
                              Develop grant
     STAG (PPIN)                                            P2Rx Grants                                                reach and assist                                      products, or used in
                              policy                                                                                                            Customers:
     funds                                                  oversight &                                                clients                                               processes
                              Announce grant                management                     States and state                                     -incorporate a P2Rx
     EPM funds                                                                                                         Increase                                              Reduced,
                              availability                  documentation                  entities eligible for                                search in their work
                                                                                                                       awareness of P2                                       conserved, or offset
     EPA HQ and               Review proposals &            Coordination and               grants                                               -Improve their ability       use of energy
     Regional staff           award grants                  meetings with                                              Increase ability to      & skill in accessing
                                                                                           P2Rx Centers                                         P2 info                      Conservation of
     Centers’ design                                        Centers’ staff                                             understand P2 and
                              Continually improve                                                                                               -Use P2 tools more           water
                                                                                                                       willingness to use
                              grants process                Consolidated data                                                                   often
                                                                                                                       P2 tools                                              Cost savings
                                                            from grantees on
                              Coordinate & meet                                                                                                 -Implement P2Rx-             through pollution
                                                            performance
                              with Regional staff                                                                                               sourced P2 practices         prevention
                                                                                                                                                                             improvements
                              Monitor Centers,              P2Rx Websites                                                                       Increased demand for
                              develop metrics, &                                                                                                & improved service           Improved
                              track performance             Information                                                                         delivery by TAPs             sustainability of
                                                            collections:                                                                                                     businesses,
     EPA Regions                                            -sector resources,                                                                  Increased
                              P2Rx Center                                                                                                                                    universities, federal
     and State                                              news, directory of P2                                                               collaboration among
                              Operation                                                    Businesses                                                                        state and local
     Grantees                                               programs, etc                                                                       organizations with           government
                              Develop & support                                            Universities and                                     shared goals
     State & local P2                                       Technical assistance           schools
                              P2RX Web site                                                                                                     More user sessions,
     providers
                              Provide P2 TA &               Training                       Federal, state and                                   increased user
     Matching funds                                                                        local governments                                    sessions per dollar
                              content expertise             Regional
     and in-kind                                                                                                                                spent
                              (e.g., peer review)           communication and
     services and
     information              Conduct training              information sharing:                                                                Improvements in
                                                            - project updates,                                                                  program efficiency
     Centers’ design          Provide information           meeting coordination                                                                and effectiveness
                              management
     EPA Regional                                           Partnerships with                                                                   Increased demand for
     project offices          Perform networking            NPPR, CA Centers,                                                                   sustainable products
                              Develop                       others                                                                              & services
                              partnerships to               Data on activities,
                              promote P2 activity           Web use measures,
                              Collect data &                etc.
                              measure results

    Acronym Key:
    P2Rx:Pollution Prevention Resource Exchange           STAG: State and Tribal Grant               EPM:Environmental Program Management                                TA: Technical Assistance
    NPPR:National Pollution Prevention Roundtable         CA:Compliance Assistance                   OECA:Office of Enforcement and Compliance Assurance                 TAP: TA Provider


Source: Chief, Planning and Assessment Branch, OPPTS

                         We recognize that the P2 Program’s effectiveness in reducing human health and
                         environmental risk associated with hazardous materials reductions is difficult to
                         evaluate. The program nonetheless recognizes the value in doing so. As the
                         former P2 Director stated, to evaluate program effectiveness, programs must be
                         able to show the outcomes from their activities. That focus enables one to
                         demonstrate changes in understanding and behavior of the target audience and,
                         ultimately, quantify the effects on the environment and human health.

Defining a Universe of P2 Pollutants Difficult

                         The P2 Program measures hazardous materials source reduction progress in
                         relation to targeted goals rather than the actual or estimated universe of pollutants
                         to be addressed. According to the Chief, Planning and Assessment Branch, there
                         is no known source of reliable information for the P2 Program to use that
                         identifies the universe of hazardous materials generated and/or used in the United
                         States, against which to demonstrate the program’s relative effectiveness. We
                         recognize that it may be difficult to identify a universe of pollutants across all
                         media and uses. However, providing a complete picture of the program’s


                                                                                            9

                                                                                  09-P-0088 



        performance results could provide a better perspective of the P2 Program’s
        effectiveness and progress in addressing source reduction.

        We found that the FY 2006 P2 Program’s PART results do not provide a
        complete picture of the program. Each of the seven Centers of Results focuses on
        particular chemicals and specified uses. They report program accomplishments
        based on those chemicals as they relate to the specified uses. For example, at the
        end of FY 2006, the Partnership for Sustainable Healthcare program reported
        actual results of 17.6 million pounds of regulated medical waste and hazardous
        waste reduced by hospitals participating in the program. However, the
        Partnership did not report 5.0 million pounds of the same wastes increased at
        those participating hospitals during the same reporting period as a result of
        increased production. The program should make it clear in its results reporting
        that it does not account for increased waste generation resulting from increased
        production levels.

        As another example, the Design for the Environment program reported
        124.7 million pounds of hazardous material reductions in FY 2006, representing
        approximately 33 percent of the year’s total reductions. Program
        accomplishments were the result of its two sub-programs – Lead-Free Solder
        Initiative and Formulator. However, the Lead-Free Solder Initiative reported
        reductions of lead solder that make up a substantial portion of the Design for the
        Environment total. This accomplishment data is provided by a trade association
        and represents the amount of lead-free solder shipped globally during calendar
        year 2006. That amount, however, does not represent the amount of lead solder
        reduced; rather the program is using that amount as a conservative proxy for the
        amount of lead solder use actually reduced. Providing such information would
        give stakeholders an improved perspective of the extent of the threat that lead
        solder continues to pose.

Recommendations
        We recommend that the Assistant Administrator for the Office of Prevention,
        Pesticides, and Toxic Substances:

           3-1     Focus on the select P2 pollutants where health effects are known and
                   develop higher level performance indicators that address reductions of
                   environmental risks or impacts to human health.

           3-2     Using the results of Recommendation 3-1, design a strategy for
                   developing P2-wide PART higher level measurements that could be
                   used as a model to further develop P2 Program-wide higher level
                   measurements.




                                         10

                                                                                  09-P-0088 



            3-3 	   Report program accomplishments as they relate to the universe for the
                    targeted chemical in the specified uses addressed by the P2 Program to
                    provide a better perspective of the program’s relative effectiveness.

Agency Response and OIG Comments
         OPPTS concurred with all of our recommendations in this area.

         We evaluated the program’s planned actions for each recommendation and
         concluded that, if implemented according to their descriptions, they could
         reasonably be expected to correct the concerns we identified. We also analyzed
         the corresponding planned completion dates and similarly found them to be
         reasonable.

         In response to Recommendation 3-1, OPPTS indicated its intention to develop an
         initial indicator tracking one or more health effects associated with at least one
         chemical that the program is currently focusing on by March 2009, and
         subsequently begin gathering data to support tracking the indicator on an annual
         basis.

         In response to Recommendation 3-2, OPPTS indicated its intention to include in
         EPA’s September 2009 submission to Congress of its 2014 Strategic Plan at least
         one new higher-level Strategic Measure and associated long-term performance
         targets. OPPTS will propose adding the new Strategic Measure and associated
         annual performance targets to the 2009 Fall PART Update and assess
         opportunities for developing additional higher-level measures and targets in future
         years.

         In response to Recommendation 3-3, OPPTS indicated that in September 2008, it
         included a proposed new Pollution Prevention Program Strategic Measure in
         EPA's 2014 Strategic Plan Change Document (circulated for public comment).
         The proposed strategic measure tracks the program's results in reducing
         production and use of a priority set of hazardous chemicals which will enable the
         program to define associated universe(s) that will provide the recommended
         perspective on the program's relative effectiveness. In spring 2009, OPPTS and
         Office of the Chief Financial Officer will determine whether to include the
         proposed measure in public comment drafts of the Strategic Plan and whether to
         submit to OMB as formal PART measures.




                                         11

                                                                                     09-P-0088 





                                 Chapter 4
             P2 Program Needs to Strengthen
          Internal Controls over Data Collection
          The P2 Program needs to strengthen internal controls over data collection and
          reporting of accomplishments. OPPTS’s Quality Management Plan (QMP)
          requires meeting quality standards and establishing acceptance criteria. In
          addition, Government Accountability Office internal control standards require
          relevant, reliable, and timely data. The P2 Program had established quality
          assurance procedures and policies governing its contractor and grantee supported
          collection and use of environmental data, but had not established similar
          procedures and policies governing work performed by EPA staff. While the
          Office of Pollution Prevention has established broad controls through the QMP, it
          did not develop a Quality Assurance Project Plan (QAPP) that would have
          included data quality objectives. As a result, EPA did not have assurance that
          performance results were accurately reported and EPA had limitations on
          demonstrating program effectiveness. According to the P2 Program, they have a
          QAPP that is currently being used in at least one region. However, the program
          acknowledged that QAPPs are not in place in all regions.

Collecting Data from Multiple Sources Challenging
          OPPTS’s QMP states that all environmental data activities generated by or for
          OPPTS shall meet quality standards, and that appropriate acceptance criteria will
          be established prior to any environmental data activity. In addition, the
          Government Accountability Office’s Standards for Internal Control in the
          Federal Government states that for an entity to run and control its operations, it
          must have relevant, reliable, and timely communications relating to internal as
          well as external events. It further states management should ensure there are
          adequate means of communicating with, and obtaining information from, external
          stakeholders that may have a significant impact on an agency achieving its goals.

          The Office of Pollution Prevention and Toxics relies on voluntary programs to
          encourage and carry out pollution prevention activities. The seven Centers of
          Results work in partnership with a broad range of stakeholders to reduce risk by
          preventing pollution at its source. The Centers collect and aggregate performance
          data from voluntary partners at other federal agencies, States, tribes, and industry.

             •	 P2 Programs in EPA’s 10 regional offices collect and aggregate
                performance data from States, tribes, and academia (typically grantees), as
                well as through direct interaction with entities implementing pollution
                prevention activities.



                                           12

                                                                                   09-P-0088 



             •	 Partnership for Sustainable Healthcare performance data are manually
                extracted from hospitals’ recognition award applications.
             •	 Green Chemistry extracts performance data from award nomination
                packages. Data is reported for the winners of the awards.
             •	 Pollution Prevention Resource Exchange collects performance data from
                State technical assistance providers who submit performance data to the
                eight P2 resource regional exchange centers.
             •	 Environmentally Preferable Purchasing electronically extracts
                performance data from the Federal Electronics Challenge partners and
                Green Electronics Council trade association data which is run through a
                peer reviewed Electronics Environmental Benefits Calculator.
             •	 Design for the Environment, through its partnerships with industry
                representatives and environmental groups, manually collects, aggregates,
                and calculates performance results data. Performance data are also
                gathered from trade associations.
             •	 Green Suppliers Network, through a partnership with the National Institute
                of Standards and Technology, extracts performance results from surveys
                of companies that the institute reviews for lean manufacturing processes.

          Each of the seven Centers of Results aggregates its P2 performance results data
          from these sources and submits the data to Office of Pollution Prevention and
          Toxics’ Planning and Assessment Branch for consolidation and reporting. In
          addition, the Branch annually extracts from the Agency Commitment System
          direct contributions to pollution prevention from EPA’s regional offices.

Inconsistent and Inaccurate Reporting of Results
          We found that the P2 Program had not established controls for the consistent
          reporting of State and tribal program results through its regional grant programs.
          We met with two regional P2 coordinators to discuss and review their data
          sources used in reporting grant results and found that there was no consistent
          format for reporting grant results. Also, verification and validation procedures
          did not ensure the accuracy of grantee results submitted by the States or the
          facilities claiming the accomplishments. The P2 Program has indicated they are
          taking steps to improve the consistency and transparency of annual regional
          results, including: development of QAPP guidance currently being used by
          several regions; issuance of new guidance to grant applicants on measuring and
          reporting the results from grant awards; standardization of a model spreadsheet
          for reporting outcome performance results; and posting of performance results on
          the P2 Website.

          In the spring 2007 PART update to the program improvement plan, the P2
          Program reported that each region will use a standard spreadsheet beginning in
          2008 to display grant and direct project annual results by measure. Implementing
          a standard format for reporting, along with procedures, should facilitate
          consistency in reporting regional P2 annual results.


                                          13

                                                                                                                  09-P-0088 



The P2 Program’s Partnership for Sustainable Healthcare reported $6.3 million in
business, institutional, and government costs reduced by P2 program participants.
We were unable to substantiate these cost savings from the documents provided
as support. The partnership’s cost savings are manually extracted from the
participating hospital’s recognition award applications. The P2 Program does not
have written procedures for its EPA staff for extracting cost savings from the
participating hospitals’ award applications. We randomly reviewed 11
(23 percent) of the 47 award applications that reported cost savings, and were
unable to arrive at the cost savings reported by the P2 Program for seven of the
applications. According to a program manager, limited resources and short
reporting timeframes affect data quality.

At the end of FY 2006, P2 reported actual program results of 383 million pounds
of hazardous materials reduced and $85.7 million in cost reductions by program
participants (see Figures 4-1 and 4-2).

Figure 4-1: FY 2006 Hazardous Materials Reductions
                                        Hazardous M aterials Reduced
                                             (M illion - Pounds)


       150

       100                                                                                Prior Year Reductions
                                                                                          (Recurring)
                                                                                          2006 Reductions
         50                                                                               (Actual)

            0
                 GC       DfE       Reg        PSH        EPP          GSN P2Rx
                                    Off


Figure 4-2: FY 2006 Cost Reductions
                      B u s in e s s , In s titu tio n a l a n d G o v ern m en t C o s ts S a v e d
                                                      (M illio n s )

       50
       40
       30
       20
       10
        0
                EPP   R eg       PSH         GC        GSN       P2R x       D fE
                      O ff


Source: OIG analysis of P2 FY 2006 results data
 DfE            Design for the Environment Center of Results
 EPP:           Environmentally Preferable Purchasing Center of Results
 GC:            Green Chemistry Center of Results
 GSN:           Green Supplies Network Center of Results
 P2Rx:          Pollution Prevention Resource Exchange Center of Results
 PSH:           Partnership for Sustainable Healthcare Center of Results
 Reg Off:       Regional Offices’ Direct Contributions



                                                       14

                                                                                    09-P-0088 




          Representing approximately 38 percent of the total 383 million pounds of
          hazardous materials reduced in FY 2006, the Green Chemistry program reported
          145.6 million pounds reduced. We reviewed documentation supporting Green
          Chemistry’s 145.6-million-pound annual reduction claimed in FY 2006 and found
          that only 5.8 million pounds were actually reduced by the 2006 Presidential Green
          Chemistry Award winner in 2006. The remaining 139.9 million pounds were
          reductions realized as far back as 1996 and projected through FY 2011 – the end
          of the Agency’s 2006-2011 strategic planning cycle. For example, the 5.8 million
          pounds of hazardous materials reductions reported by the 2006 award winners
          will be reported as reductions every year through FY 2011. Green Chemistry
          projections include a company’s annual reductions in subsequent years as current
          year reductions rather than reporting actual annual accomplishments. We did not
          test the soundness of this recurring results methodology for projecting annual
          program accomplishments out for approximately 15 years. We were advised by
          P2 that they conducted a consultation with EPA’s Science Advisory Board on
          September 3, 2008 to obtain input on their methodology for measuring program
          results, and are awaiting the Board’s formal communication of recommendations.

Data Quality Requirements Not Met
          The ultimate success of a program or project depends on the adequacy,
          sufficiency, and quality of the environmental data collected and used in decision
          making. EPA Requirements for Quality Management Plans (March 2001) states
          that EPA organizations are required to establish, implement, and document their
          quality system in a QMP. The QMP is supported by project-specific QAPPs,
          which require all work performed by, or on behalf of, EPA involving the
          collection of environmental data be implemented in accordance with an Agency-
          approved QAPP. A QAPP defines and documents how specific data collection
          activities shall be planned, implemented, and assessed during a particular project.

          We reviewed OPPTS’s QMP for the Pollution Prevention Division (June 2003),
          and found that P2’s activities involved the collection and analysis of
          environmental data as well as analyzing environmental data previously collected.
          At the time of our review, we did not find that a QAPP was developed for P2
          projects. Developing and implementing an effective QAPP may have prevented
          many of the data quality issues we identified with the P2 Program. Although
          OPPTS has developed a broader QMP, we found it was not being fully
          implemented by all P2 Centers. Further, more detailed procedures, which would
          be included in a QAPP, were not developed. As a result, P2's and the program
          partner’s verification and validation procedures did not ensure the accuracy of
          performance data used for reporting on program accomplishments.

          As P2 performance data is communicated internally and externally to Congress
          and other stakeholders, the data should be relevant, reliable, and timely. The
          Pollution Prevention Division needs to implement the requirements of the QMP to
          ensure the quality of its environmental data.


                                           15

                                                                                  09-P-0088 



Recommendations
         We recommend that the Assistant Administrator for the Office of Prevention,
         Pesticides, and Toxic Substances:

            4-1 	   Revise the P2 Program procedures for calculating program results to
                    collect and use current year data from its voluntary partners to
                    calculate annual program results.

            4-2 	   Require the development of QAPPs for collecting environmental data.

            4-3 	   Implement controls to ensure full implementation of the Pollution
                    Prevention Division’s QMP.

Agency Response and OIG Comments
         OPPTS concurs with all of our recommendations in this area.

         We evaluated the Program’s planned actions for each recommendation and
         concluded that, if implemented according to their descriptions, they could
         reasonably be expected to correct the concerns we identified. We also analyzed
         the corresponding planned completion dates and similarly found them to be
         reasonable.

         In response to Recommendation 4-1, OPPTS indicated it met with EPA's Science
         Advisory Boards in September 2008 to obtain advice on how to more fully reflect
         its benefits by measuring its recurring as well as new annual results and is
         developing measures that clearly distinguish the two.

         In response to Recommendation 4-2, OPPTS explained that although the
         development of QAPPs for contractors and grantees has been a tenet of the
         OPPTS Quality Assurance policy for a number of years and all P2 Program
         Centers have been in compliance with this policy, outside organizations that
         voluntarily submit data to the Program have generally not submitted associated
         QAPPs. We maintain that at the time of completion of our audit we had not
         received evidence that any QAPPs were in effect for the Program whether for
         contractors and grantees, regions or centers, or voluntary partners. In response to
         our draft report issued to the P2 Program on November 3, 2008, we received from
         OPPTS a document entitled “QAPP Lite” which was reportedly in place for at
         least Region 1. This document, in our opinion, did not approach the purpose and
         standards prescribed by the QMP. The P2 Program also contends that two of its
         centers have data validation procedures for information submitted by partners and
         in nominations for program awards. These procedures are not, however, a
         substitute for a high quality QAPP.




                                         16

                                                                      09-P-0088 



In response to Recommendation 4-3, OPPTS indicated it is in the process of
developing a set of Standard Operating Procedures to ensure implementation of
the QMP.




                               17

                                                                                   09-P-0088 





                                Chapter 5
   Program Improvement Plan: Progress Slow and
          Not All Weaknesses Addressed
          While P2 has completed many of its interim actions to address the program
          improvement plan (PIP), the plan did not address all the deficiencies identified
          during the PART assessment. The P2 Program received a PART score of zero on
          critical questions regarding program evaluations, data quality, and management
          accountability during its FY 2006 PART assessment. Nonetheless, no actions
          were identified to correct these shortcomings. To maximize the effectiveness of
          the PART tool and ensure the P2 Program is operating efficiently and effectively,
          the PIP should address the cause of the deficiencies identified during the
          assessment process.

Progress to Address PIP Slow
          In response to each of the PART areas assessed, the program office and OMB
          identify actions to improve the program’s performance through a PIP. Agency
          steps to complete these actions and improve performance are tracked through the
          President’s Management Agenda scorecard for the Performance Improvement
          Initiative, as well as through PART updates. As a result of the 2006 PART
          assessment, OMB examiners and P2 Program managers developed the following
          activities for the P2 Program:

             •	 Evaluate Science Advisory Board report recommendations for improving
                performance measures to better demonstrate P2 results.
             •	 Identify and reduce barriers associated with core EPA activities that limit
                implementation of pollution prevention practices by industry.
             •	 Develop additional P2 Program efficiency measures to expand the portion
                of the program’s resources that are addressed.
             •	 Fully implement GranTrack and P2 State Reporting System. Obtain
                consistent 2007 results from regions.

          We reviewed the P2 Program’s 2007 PART spring PIP update and discussed the
          actions taken with P2 Program managers. Although the P2 Program has
          completed many of its interim actions to address the PIP, 2 years later only one of
          the corrective actions had been fully completed and implemented. Details on
          what we found for each of the four activities listed above follow.




                                           18

                                                                          09-P-0088 



Evaluate Science Advisory Board report recommendations for
improving performance measures to better demonstrate P2 results

Although the P2 Program initiated actions to secure a commitment with the
Science Advisory Board in FY 2006 for assistance in making improvements in
reporting accomplishments and developing measures, an actual commitment was
not received until April 2008 for a September 2008 consultation, almost 2 years
later.

On June 14, 2006, the P2 Program provided the Science Advisory Board an
overview on the program and the measurement issues they face. They also
provided questions for the Science Advisory Board to consider pertaining to
projecting recurring results, capturing the impact of indirect assistance, and using
environmental calculators. In the 2007 PART spring update, the P2 Program
indicated it had received a commitment from the Science Advisory Board to
assess and review P2 Program performance measures. However, we found that
due to scheduling problems with the Science Advisory Board and the P2 Program
Division Director’s retirement, the P2 Program had not received assistance from
the Science Advisory Board.

In April 2008, the P2 Program and the Science Advisory Board were able to
schedule and subsequently conduct a consultation to assess the methodology
surrounding the use of recurring results in performance measurement and to
explore the feasibility of adding higher level indicators (4, 5, or 6) from the
Agency’s Hierarchy of Indicators. According to the P2 Program the Science
Advisory Board also examined how to measure outcome data from indirect
program interventions. Indirect interventions are not on-site and include
dissemination of P2 information through various means. The program anticipates
formal recommendations from the Board to be provided to the EPA Administrator
before the end of 2008, and causing a further extension of the associated PART
PIP to evaluate those recommendations until the 2009 spring PART update.

Identify and reduce barriers associated with core EPA activities that
limit implementation of pollution prevention practices by industry

The Pollution Prevention Division conducted a self assessment and developed a
draft report, “Evaluation of EPA Efforts to Integrate Pollution Prevention Policy
throughout EPA and at Other Federal Agencies” (dated March 27, 2008). The
evaluation assessed the current state of P2 integration within EPA programs,
including barriers and Toxic Release Inventory source reduction reports. The
evaluation focused on Pollution Prevention Act provisions that address integrating
P2 policy into federal programs authorized under other statutes. The P2 Program
concluded that most of the Agency’s program activities and efforts to promote P2
among other EPA programs and at other federal agencies are in basic conformity
with the Act’s provisions for P2 integration but there is clearly room for
improvement. The reported recommendations were:



                                 19

                                                                         09-P-0088 





       •	 Take short-term action on several steps to improve the implementation
          of pollution prevention policy;
       •	 Review the Agency’s information collection practices pertaining to P2,
          with the aim of improving overall ease of data collection, coordination
          between systems, and availability of information once collected;
       •	 Address the need for meaningful P2 guidance in the Agency’s
          Economic Impact Analysis Guidance;
       •	 Begin in the short term two processes for more thoroughly improving
          implementation of pollution prevention policy; and
       •	 Begin longer-term processes for addressing more far-reaching positive
          improvements in the implementation of pollution prevention policy.

The P2 Program provided the draft report to the States and noted in its response to
our draft report that it had received feedback in the summer 2008. The P2
Program plans to incorporate key recommendations into its strategic plan.

Develop additional P2 Program efficiency measures to expand the
portion of the program’s resources that are addressed

According to the Chief, Planning and Assessment Branch, the P2 Program has
developed a revised Design for the Environment efficiency measure which
increased the scope of the program in the fall 2007. Another measure, assessing
the efficiency of the Environmentally Preferable Purchasing program, will be
introduced in the fall 2008. These measures will cover more of the P2 Program’s
resources, as recommended by OMB.

Fully implement GranTrack and P2 State Reporting System. Obtain
consistent 2007 results from regions

GranTrack is a Web-based tool designed to help EPA regional and headquarters
project officers manage grants and access information on pollution prevention
projects around the country. According to the Chief, Planning and Assessment
Branch, GranTrack is one of several options currently being assessed to track P2
results from State Technical Assistance Grants and Source Reduction Assistance
Grants. While the Fiscal Year 2006 PIP recommendation was to obtain consistent
2007 results from the regions, a decision on whether GrantTrack will be used had
not been made as of fall 2008.

The State P2 Reporting system, “P2 Results,” has been fully implemented. The
first report using performance information from this system has been compiled
and is planned for release in the summer 2008. These data come from States and
businesses through Pollution Prevention Resource Exchange centers and the
report will be issued by the National Pollution Prevention Roundtable.




                                20

                                                                                             09-P-0088 



                To obtain consistent 2007 results from regions, the program initiated a reporting
                methodology in a standard spreadsheet. Beginning in 2008, each P2 region will
                be required to use a standard spreadsheet in addition to P2 results to display grants
                and project annual results by measure.

                The Program also issued guidance, “Draft 2008 Measurement Guidance for EPA
                P2 Coordinators,” on developing FY 2008 commitments to EPA’s Agency
                Commitment System, to further ensure consistency in reporting results. While
                labeled draft, the Chief, Planning and Assessment Branch, indicated the guidance
                is a “living document,” and as new and better ways are discovered to improve
                measurement methodologies they will be incorporated into the measurement
                guidance. P2 Program managers met with regional P2 coordinators in May 2008
                and plan to issue a final version of the guidance incorporating feedback from the
                P2 coordinators in the fall 2008.

Additional Program Improvements Needed
                The PIP developed by OMB and the P2 Program following the P2 PART
                Assessment did not address all the deficiencies identified. The PART tool is used
                to assess the program’s performance and drive improvements. Therefore, to
                maximize its effectiveness, the PIP should address the deficiencies identified
                during the assessment process. Correcting the deficiencies for the critical
                questions that scored zero in the PART assessment can help improve the P2
                Program’s overall performance. Details are in Table 5-1.

Table 5-1: P2 Program’s FY 2006 PART Questions Receiving a Score of Zero
 Question #                              PART Questions                                Critical Areas
     2.6       Are independent evaluations of sufficient scope and quality           Program
               conducted on a regular basis or as needed to support program          Evaluations
               improvements and evaluate effectiveness and relevance to the
               problem, interest, or need?
     3.1       Does the agency regularly collect timely and credible performance     Data Quality
               information, including information from key program partners, and
               use it to manage the program and improve performance?
     3.2       Are Federal managers and program partners held accountable for        Management
               cost, schedules and performance results?                              Accountability

   3.CO3       Does the program collect grantee performance data on an annual        Data Quality
               basis and make it available to the public in a transparent and
               meaningful manner?
     4.5       Do independent evaluations of sufficient scope and quality indicate   Program
               that the program is effective and achieving results?                  Evaluations

Source: OIG review and analysis of the P2 Program’s FY 2006 PART Assessment




                                                   21

                                                                                 09-P-0088 



Recommendations
         We recommend that the Assistant Administrator for the Office of Prevention,
         Pesticides, and Toxic Substances:

            5-1 	   Have the P2 Program plan and schedule periodic evaluations of its
                    pollution prevention efforts to identify areas where program
                    improvements are needed and implement needed corrective actions.

            5-2 	   Develop actions to address the PART questions where the P2 Program
                    was not awarded any points during the FY 2006 PART Assessment
                    and include the PIP in the next PART update to promote continual
                    P2 Program improvements.


Agency Response and OIG Comments
         OPPTS concurs with all of our recommendations.

         We evaluated the program’s planned actions for each recommendation and
         concluded that, if implemented according to their descriptions, they could
         reasonably be expected to correct the concerns we identified. We also analyzed
         the corresponding planned completion dates and similarly found them to be
         reasonable.

         In response to Recommendation 5-1, OPPTS reiterated that it has conducted two
         extensive program evaluations addressing two of its Centers of Results that were
         completed on schedule and within budget. We maintain that the P2 Program
         could benefit from planned and scheduled evaluations of their voluntary
         programs.

         In response to Recommendation 5-2, OPPTS indicated it will ensure that all
         proposed replacements for completed follow-up actions are targeted at
         unaddressed weaknesses identified in the Pollution Prevention Program PART
         Assessment until all weaknesses have been fully addressed or, in the case of the
         PART requirements for independent program evaluations, addressed to the extent
         deemed practicable given program resource allocations and influence over
         decisions made by independent evaluating entities.




                                         22

                                                                                                                                          09-P-0088



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
     Rec.    Page                                                                                                 Completion    Claimed    Agreed To
     No.      No.                          Subject                         Status1        Action Official            Date       Amount      Amount

     3-1       10 	 Focus on the select P2 pollutants where health
                   Assistant Administrator,
   March 2009
                    effects are known and develop higher level 
                       Office of Prevention,
        and
                    performance indicators that address reductions of
                    Pesticides, and 
        ongoing
                    environmental risks or impacts to human health.
                    Toxic Substances 


     3-2       10 	 Using the results of Recommendation 3-1, design a                 Assistant Administrator,
    Fall 2009
                    strategy for developing P2-wide PART higher level                  Office of Prevention,

                    measurements that could be used as a model to                         Pesticides, and 

                    further develop P2 Program-wide higher level                        Toxic Substances 

                    measurements.

     3-3       11 	 Report program accomplishments as they relate to                  Assistant Administrator,
    Fall 2009
                    the universe for the targeted chemical in the                      Office of Prevention,

                    specified uses addressed by the P2 Program to                         Pesticides, and 

                    provide a better perspective of the program’s                       Toxic Substances 

                    relative effectiveness.

     4-1       16 	 Revise the P2 Program procedures for calculating                  Assistant Administrator,
    Fall 2009
                    program results to collect and use current year                    Office of Prevention,

                    data from its voluntary partners to calculate annual                  Pesticides, and 

                    program results.                                                    Toxic Substances 


     4-2       16 	 Require the development of QAPPs for collecting 
                 Assistant Administrator,
      2009
                    environmental data.
                                               Office of Prevention,

                                                                                          Pesticides, and 

                                                                                        Toxic Substances 


     4-3       16 	 Implement controls to ensure full implementation of               Assistant Administrator,
      2009
                    the Pollution Prevention Division’s QMP.                           Office of Prevention,

                                                                                          Pesticides, and 

                                                                                        Toxic Substances 


     5-1       22 	 Have the P2 Program plan and schedule periodic                    Assistant Administrator,
   Spring 2009
                    evaluations of its pollution prevention efforts to                 Office of Prevention,

                    identify areas where program improvements are                         Pesticides, and 

                    needed and implement needed corrective actions.                     Toxic Substances 


     5-2       22 	 Develop actions to address the PART questions                     Assistant Administrator,
   Spring 2010
                    where the P2 Program was not awarded any points                    Office of Prevention,

                    during the FY 2006 PART Assessment and include                        Pesticides, and 

                    the PIP in the next PART update to promote                          Toxic Substances 

                    continual P2 Program improvements.




1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                                23

                                                                                                             09-P-0088


                                                                                                        Appendix A

                                EPA’s Hierarchy of Indicators
                                  Type of performance
                                   goal and measure
             Description of       generally associated              Example of                        Example of
Level          Indicator           with the indicator            performance goal                performance measure
 6        Environmental risk or   End outcome              Restore watersheds to their         Number of river miles, lake
          impacts to the                                   designated uses                     acres, and estuary square
          ecology or human                                                                     miles that will be restored
          health and/or welfare                                                                to their designated uses
 5        Pollutants absorbed     End outcome              Reduce pesticide poisonings         Pesticide poisonings will be
          by the human body                                by 5 percent                        reduced by 5 percent
 4        Concentrations of       End outcome              Maintain healthy air quality for    All areas currently meeting
          pollutants in the                                levels of carbon monoxide,          national ambient air quality
          environment                                      sulfur dioxide, nitrogen dioxide,   standards will continue to
                                                           and lead                            maintain healthful
                                                                                               standards for carbon
                                                                                               monoxide, sulfur dioxide,
                                                                                               nitrogen dioxide, and lead
 3        Discharges and          End outcome              Reduce discharges of toxic air      Discharge of toxic air
          emissions of                                     pollutants by 4 million pounds      pollutants will be reduced
          pollutants                                       per year                            by 4 million pounds per
                                                                                               year
 2        Actions or responses    Intermediate outcome     At least 100 drinking water         At least 100 eligible
          by regulated parties                             systems eligible for Drinking       drinking water systems will
                                                           Water State Revolving Funds         initiate operations to protect
                                                           will have initiated operations      human health and welfare
                                                           that protect human health and
                                                           welfare
 1        Actions by EPA,         Output                   Prepare final rules for disposal    The lead debris disposal
          States, tribes, or                               of lead-based paint debris and      rule and lead hazardous
          other governmental                               establish standards regarding       standards rule will be
          bodies                                           hazardous levels of lead in         completed by
                                                           paint, dust, and soil               September 30, 2000
      1
 R        Research and            Output                   Develop a conceptual model          A model to assess the
          development                                      for developing watershed            exposure of wildlife to
                                                           assessment techniques that          multimedia environmental
                                                           would assist local, regional,       contaminants (i.e., in the
                                                           and national environmental          soil, water, food, and air)
                                                           decision-makers in maintaining      will be released
                                                           the ecological integrity of a
                                                           watershed
  Source: Government Accountability Office Report, GAO/RCED-00-77, EPA Faces Challenges in Developing
  Results-Oriented Performance Goals and Measures, April 2000




  1
   Level “R” was established for research and development efforts to differentiate from other types of environmental
  activities.


                                                          24

                                                                                       09-P-0088 




                                                                                   Appendix B


                  Agency Response to Draft Report
                                       December 4, 2008

MEMORANDUM

SUBJECT:              Draft Audit Report: Measuring and Reporting Performance
                      Results for the Pollution Prevention Program Need Improvement
                      Assignment No. 2007-00087

FROM:                 James B. Gulliford
                      Assistant Administrator

TO:                   Patrick Gilbride, Director
                      Risk and Program Performance
                      Office of Inspector General (OIG)


       Thank you for providing an opportunity to review the Draft Audit Report: Measuring and
Reporting Performance Results for the Pollution Prevention Program Need Improvement and for
your consideration of the comments we offered on the prior Discussion Draft.

        As noted in our previous comments, we appreciate the quality and extent of OIG’s work
in researching the Pollution Prevention (P2) Program. While the requests for information were
extensive, we recognize that these requests reflected the depth of the inquiry and diligence in
pursuing issues to proper conclusion.

        We appreciate and concur with OIG’s overall finding that the P2 Program is deserving of
the high rating it received from the Office of Management and Budget (OMB) in its Performance
Assessment Rating Tool (PART) assessment, which as you know ranks as the third highest
rating received among all 53 EPA programs evaluated by OMB to date. OPPTS values OMB’s
PART assessments as opportunities to collaborate in assessing and improving the soundness of
our programs’ design and management and their ability to deliver meaningful and important
results. In my view, this result, in combination with OMB’s similarly high ratings for the Office
of Pollution Prevention and Toxics’ (OPPT’s) Lead Risk Reduction Program and Chemical Risk
Review and Reduction Program PARTs – also among the top five EPA-rated programs – is
reflective of OPPT’s long-standing commitment to and recognition of the importance and value
of results-oriented program design and management. We have developed a strong portfolio of
quantifiable, results-oriented Government Performance and Results Act (GPRA) and PART
performance measures. We were early embracers of program Logic Modeling, with models
developed for all of our programs. We believe in the value of program evaluation, having been
selected for four of the Office of Policy, Economics and Innovation’s (OPEI) annual Program
Evaluation Competitions, including two evaluations of elements of the P2 Program.


                                                25

                                                                                          09-P-0088 





        We don’t do these things simply to achieve good PART ratings. We do them because we
genuinely believe that they make our programs better and more effective. Similarly, we believe
that our engagement with your auditors and the resulting Audit report will contribute
significantly towards our goal of continuous program improvement.

        We also concur with many of your more detailed findings, and believe that implementing
all of your recommendations will contribute significantly to the improvement of the P2
Program’s ability to measure and report on its important results. We appreciate your
incorporation of many of our comments on the Discussion Draft, and find the quality of this
Draft Report to be much improved. We continue to have concerns, however, with the way some
information is presented in the Draft Report. Our concerns again fall into three categories:

   •	 Some minor editorial corrections are needed;
   •	 Some factual information (data references and explanations, etc.) and statements ascribed
      to individuals or program managers in general need correction;
   •	 We disagree with some of your interpretations and associated findings.

        To assist you in finalizing the report, we’ve again compiled a Track Changes version
showing all of the corrections we think are needed as well as our remaining suggestions for
further improvement (see P2 PART.Draft OIG Audit Report.OPPTS Suggested Changes.12-04-
08). We continue to recognize that this is OIG’s report, not an OPPTS report, but hope you can
give additional consideration to this final set of priority concerns in finalizing the report. We’re
attaching a document providing explanations for all of our substantive concerns/suggestions to
help you assess them (see P2 PART.Draft OIG Audit Report.OPPTS Change Explantions.12-04-
08.doc).

       Per your request, we are also providing an attachment indicating our concurrence with
each proposed recommendation, including planned completion dates for all recommendations
and corrective actions already initiated or planned (see P2 PART.Draft OIG Audit Report.OPPTS
Concurrences & Schedules.12-04-08.doc).

       In the case of one of the concerns we communicate in the Track Changes and Change
Explanations documents, regarding your report’s suggestion on page 11 that increased waste
generation resulting from production/service level increases should count against the program's
hazardous materials reduction results, we state that this proposed approach:

       "completely distorts the public benefit obtained through the investment of public
       resources. Reviews of performance measurement literature and practices by other
       programs, governments and industry support the P2 Program’s approach on this issue and
       do not support the approach suggested in your language. This issue is critically important
       in supporting sound and cost-effective public policy and investment decisions. If you
       continue to disagree with us on this point, I recommend we conduct an in-person
       discussion and include representatives from other EPA programs that would be
       negatively impacted by the adoption of your suggested approach."




                                                 26

                                                                                         09-P-0088 



       Since your report’s suggested approach is not manifested in any of its formal
recommendations, we are not deterred from concurring with them. But we do believe that
publication of this measurement approach in an OIG Final Report would have negative
consequences for many EPA programs and believe the issue merits being raised up the
management chain if we are unsuccessful in resolving it at this stage.

       OPPTS again expresses appreciation for the quality work that went into this report and
values all of the recommendations. My staff and I are available to assist in further refinement of
the report into its final form. Please contact Mike Burns (202-564-8273) if additional assistance
is needed.

Attachments:

       P2 PART.Draft OIG Audit Report.OPPTS Suggested Changes.12-04-08.doc

       P2 PART.Draft OIG Audit Report.OPPTS Change Explantions.12-04-08.doc

       P2 PART.Draft OIG Audit Report.OPPTS Concurrences & Schedules.12-04-08.doc

       P2 Regional Offices.Region 1 QAPP.10-30-07.doc


cc:    	Jim Jones
       Charles Auer
       Wendy Cleland-Hamnett
       Bruce Berkley
       Thomas Tillman
       Robert Lee
       Barbara Cunningham
       Mike Burns




                                                27

                                                                                        09-P-0088 



                  Draft Office of Inspector General Audit Report:
Measuring and Reporting Performance Results for the Pollution Prevention Program Need
                                    Improvement
                             Assignment No. 2007-00087

OPPTS Concurrences with Recommendations and Proposed Implementation Schedules:

        As noted in the OPPTS memorandum responding to Patrick Gilbride, Director, Risk and
Program Performance, Office of Inspector General (OIG), OPPTS concurs with all of OIG’s
recommendations presented in its Draft Audit Report: Measuring and Reporting Performance
Results for the Pollution Prevention Program Need Improvement
(Assignment No. 2007-00087), and believe that implementing them will contribute significantly
to the improvement of the Pollution Prevention (P2) Program’s ability to measure and report on
its important results.

         Specific responses and implementation schedules for each recommendation are provided
below.

3-1: Focus on the select P2 pollutants where health effects are known and develop higher
level performance indicators that address reductions of environmental risks or impacts to
the ecology or human health.

         OPPTS concurs with this recommendation:

            o	 By March, 2009, the P2 Program will develop an initial indicator tracking one or
               more health effects associated with at least one chemical that the program is
               currently focusing on. Likely candidates for this initial indicator development are
               diisocyanates used in auto refinishing operations. Diisocyanates are the leading
               cause of occupational asthma and also a skin sensitization concern. The P2
               Program is already tracking reductions in the use of these chemicals in these
               settings under its current Level 3 outcome measure targeting reductions in pounds
               of hazardous materials.

            o	 Commencing in 2009 after the initial higher level indicator is developed, the P2
               Program will gather data to support tracking the indicator on an annual basis.

            o	 In future years, the program will explore whether other higher-level could also be
               developed based on this model.

3-2: Using the results of Recommendation 3-1, design a strategy for developing P2-wide
PART higher level measurements that could be used as a model to further develop P2
Program-wide higher level measurements.

         OPPTS concurs with this recommendation:




                                                28

                                                                                      09-P-0088 



          o	 The P2 Program will include in EPA’s September, 2009, submission to Congress
             of its 2014 Strategic Plan at least one new higher-level Strategic Measure with an
             associated long-term performance target, drawing on the information developed in
             support of the higher level indicator to be developed under Recommendation 3-1
             above.

          o	 The P2 Program will subsequently propose adding the new Strategic Measure as a
             PART Long-Term measure in the 2009 Fall PART Update, and propose
             associated Annual performance targets needed to achieve the Long-Term target.

          o	 In future years, the P2 Program will expand existing performance targets to reflect
             expanded implementation across the program’s Centers, and assess opportunities
             for developing additional higher-level measures based on this model.

3-3: Report program accomplishments as they relate to the universe for the targeted
chemical in the specified uses addressed by the P2 Program to provide a better perspective
of the program’s relative effectiveness.

       OPPTS concurs with this recommendation, having previously at our own initiation
       commenced taking steps towards its implementation:

          o	 September, 2008: OPPTS included a proposed new Pollution Prevention Program
             Strategic Measure in EPA's 2014 Strategic Plan Change Document, circulated for
             public comment, tracking the program's results in reducing production and use of
             a priority set of hazardous chemicals which, once defined through EPA's
             Chemical Assessment and Management Program (ChAMP) and other priority-
             setting mechanisms, will enable the program to define associated universe(s) that
             will provide the recommended perspective on the program's relative effectiveness.

          o	 Spring, 2009: OPPTS/OCFO will determine whether to include the proposed
             measure in public comment drafts of the Strategic Plan and whether to submit to
             OMB as formal PART measures, making necessary refinements as understanding
             improves regarding the priority setting processes and the measurement mechanics.

          o	 September, 2009: Final Long-Term Measures will be included in the Final EPA
             2014 Strategic Plan submitted to Congress.

          o	 Fall, 2009: Final Long-Term and Annual Measures will be submitted to OMB for
             incorporation as formal PART Measures

4-1: Revise the P2 Program procedures for calculating program results to collect and use
current year data from its voluntary partners to calculate annual program results.

       OPPTS concurs with this recommendation, having previously at our own initiation
       commenced taking steps towards its implementation:




                                              29

                                                                                      09-P-0088 



          o	 September 3, 2008: Conducted consultation with EPA's Science Advisory
             Boards' Environmental Engineering Committee to obtain advice on how to more
             fully reflect the Pollution Prevention Program's benefits by measuring its
             recurring as well as new annual results.

          o	 October/November, 2008: Developing proposed Pollution Prevention Program
             Strategic Measures for consideration for inclusion in the EPA 2014 Strategic Plan
             and as Long-Term and Annual PART Measures, clearly distinguishing measures
             tracking new annual results from measures that include recurring results
             stemming from prior years' program interventions.

          o	 Spring, 2009: OPPTS/OCFO will determine which of the above measures to
             include in public comment drafts of the Strategic Plan and which to submit to
             OMB as formal PART measures.

          o	 September, 2009: Final Long-Term Measures will be included in the Final EPA
             2014 Strategic Plan submitted to Congress.

          o	 Fall, 2009: Final Long-Term and Annual Measures will be submitted to OMB for
             incorporation as formal PART Measures.

4-2:   Require the development of QAPPs for collecting environmental data.

       OPPTS concurs with this recommendation, having previously at our own initiation
       commenced taking steps towards its implementation:

          o	 OPPT’s Pollution Prevention Division (PPD) recently revised and updated its
             Quality Management Plan to document the procedures they have implemented, in
             part, to respond to the PART assessment’s findings. While not officially
             completed at the time of the OIG audit review and unavailable for distribution, it
             has now been officially approved by the Agency.

          o	 A number of P2 programs use and report performance results data generated by
             organizations outside EPA. To prevent inappropriate and inconsistent use of
             these data, OPPT is in the process of developing data quality criteria that will be
             provided to those organizations to ensure that future data submitted to EPA
             comply with these requirements and that the data can appropriately be used by
             EPA. The development of QAPPs for contractors and grantees which engage in
             environmental data activities has been a tenet of the OPPT Quality Assurance
             policy for a number of years and all P2 Program Centers have been in compliance
             with this policy. However, outside organizations that voluntarily have submitted
             data to the P2 Program have generally not submitted associated QAPPs, which
             document the procedures they followed to collect, use and report results, with
             these data. OPPT is currently developing procedures (see response to
             Recommendation 4-3) to ensure these organizations provide the appropriate
             documentation with the data for future submissions. For example, the FY 2009



                                              30

                                                                                        09-P-0088 



              P2 Grant Program is establishing “appropriate means for measuring the
              effectiveness of the P2 Grant Program by promoting the use of source reduction
              techniques by businesses.” To qualify for a grant, applicants must provide
              qualitative and quantitative estimates of expected outcomes and outputs of project
              activities through an approved plan. This will comply with EPA Policy Order #
              5700.7 (Environmental Results Policy).

          o	 The Design for Environment and Green Chemistry Centers have data validation
             procedures for information submitted by partners and in nominations for program
             awards. For the Green Chemistry Awards, nominations are peer reviewed by an
             independent panel for formal judging. This panel identifies data that need further
             verification and validation by EPA prior to the award. In addition, those who
             apply for and receive awards are required to follow a set of procedures to ensure
             the quality of the information submitted by the nominees. The program will
             continue these effective procedures in future years. As noted in the response to
             Recommendation 4-3, Standard Operating Procedures (SOPs) and QAPPs as
             warranted will be developed to specifically address areas where additional data
             verification and validation are needed and will be in place for the next round of
             awards in 2009.

4-3:   Implement controls to ensure full implementation of the Pollution Prevention QMP.

       OPPTS concurs with this recommendation, having previously at our own initiation
       commenced taking steps towards its implementation:

          o	 As noted in Recommendation 4-2, the new PPD QMP is now officially approved.
             However, implementation of the QMP has been ongoing and is well underway.
             To ensure that the procedures documented in the QMP are properly followed,
             OPPT is in the process of developing a set of Standard Operating Procedures
             (SOPs). These procedures are analogous to QAPPs for routine or repetitive
             activities conducted by an organization, that will specify the data quality
             objectives, data standards, including reporting formats, and data assessment
             procedures that EPA needs for its use of data for performance measurement and
             reporting and, as warranted, for dissemination to the public. These SOPs will be
             used in developing program specific QAPPs that will include data assessment and
             validation procedures to ensure that the data that are submitted comply with these
             requirements.

          o	 OPPT will work closely with grantees and voluntary submitters of performance
             results data to ensure that these data are appropriate for their intended use and are
             accompanied by documentation that addresses the procedures followed to collect,
             use and report them. These procedures will be in place for the next round of
             awards or data submission cycle in 2009.




                                               31

                                                                                   09-P-0088 



5-1: Have the P2 Program plan and schedule periodic evaluations of its pollution
prevention efforts to identify areas where program improvements are needed and
implement needed corrective actions.

      OPPTS concurs with this recommendation, having previously at our own initiation
      commenced taking steps towards its implementation:

          o	 The P2 Program has conducted two extensive program evaluations addressing two
             of its Centers of Results over the past three years. Both evaluations were
             sponsored by EPA's Office of Policy, Economics and Innovation (OPEI) through
             its annual Program Evaluation Competition. The first focused on the Hospitals
             for a Healthy Environment Program, the forerunner to the Partnership for
             Sustainable Healthcare, and was completed in May 2006. The second focused on
             the Pollution Prevention Information Network Grant Program, which supports the
             Pollution Prevention Resource Exchange (P2Rx) centers, and was completed in
             August 2008. Both evaluations were completed on schedule and within budget,
             producing reports documenting program effectiveness and conveying
             recommendations for program improvements.

          o	 Fall 2008: OPPTS is currently assessing the recommendations from the report
             evaluating the P2Rx program to determine which recommendations to implement
             and in what priority.

          o	 Winter/Spring 2009: OPPTS will begin implementation of recommendations
             from the P2Rx evaluation.

          o	 Spring 2009: OPPTS will target another one of its Centers of Results to submit
             an application for consideration under OPEI's Program Evaluation Competition.

      Note: Since the OPEI-sponsored evaluations are not conducted by entities considered
      independent of EPA, OMB criteria do not allow the evaluated programs to receive credit
      for them as program evaluations in PART assessments. However, the cost of conducting
      an independent program evaluation that meets OMB's criteria is prohibitive for the P2
      program, and OPPTS believes it has obtained the full benefits offered by program
      evaluations in its two previous EPA evaluations.

5-2: Develop actions to address the PART questions where the P2 Program was not
awarded any points during the FY 2006 PART Assessment and include the PIP in the next
PART update to promote continual P2 Program improvements.

      OPPTS concurs with this recommendation, having already addressed some of the
      identified weaknesses under previously completed or currently active PART Follow-Up
      Actions. Commencing with the 2009 Spring PART Update, OPPTS will ensure that all
      proposed replacements for Completed Follow-Up Actions are targeted at unaddressed
      weaknesses identified in the Pollution Prevention Program PART Assessment until such
      time that all such weaknesses have been fully addressed or, in the case of the PART



                                             32

                                                                              09-P-0088 



requirements for independent program evaluations, addressed to the extent deemed
practicable given program resource allocations and influence over decisions made by
independent evaluating entities.

   o	 Spring, 2009: Propose replacement Follow-Up Action for current to-be-
      completed Action #1. 


   o	 Fall, 2009: Propose replacement Follow-Up Actions for current to-be-completed
      Actions #5.

   o	 Spring, 2010: Propose replacement Follow-Up Action for future to-be-completed
      Actions.




                                       33

                                                                                         09-P-0088


                                                                                  Appendix C



                                         Distribution

Office of the Administrator
Acting Assistant Administrator, Office of Prevention, Pesticides, and Toxic Substances
Acting General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting Director, Office of Pollution Prevention and Toxics
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Prevention, Pesticides, and Toxic Substances
Deputy Inspector General




                                              34

